TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                      Inspection of the Agency-Wide Shared
                             Services Fleet Program



                                           June 6, 2011

                           Reference Number: 2011-IE-R005




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                       DEPARTMENT OF THE TREASURY
                                             WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 6, 2011


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                          R. David Holmgren
                                Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                       Final Inspection Report – Inspection of the Agency-Wide Shared
                                Services Fleet Program (# IE-10-018)

 This report presents the results of our inspection of the Internal Revenue Service’s (IRS’s) fleet
 vehicle program operated by the Agency-Wide Shared Services (AWSS). We reviewed the
 AWSS fleet program as part of our recent inspection of the IRS’s Vehicle Home-to-Work
 Programs.1 The issues presented in this report are unique to the AWSS program and are not
 directly related to the home-to-work issues we previously reviewed; as such, we are reporting
 them separately.

 Synopsis
 During our review we found that monthly bills from the General Services Administration (GSA)
 were not always verified against receipts for repairs. We also found that justifications were not
 always prepared as required to substantiate the need for vehicles used less than the minimum
 miles recommended by GSA. In addition, the requirement for certification of a valid driver’s
 license is not included in AWSS guidance, as required by the Department of the Treasury.

 Recommendations
 We recommend that the Director, Real Estate and Facilities Management (REFM), ensure that
 justifications are provided for vehicles used for fewer miles than recommended in GSA’s
 guidelines; and that the Internal Revenue Manual is revised to require drivers to certify that
 they are properly licensed to drive AWSS fleet vehicles.




 1
     Inspection of the Internal Revenue Service’s Home-to-Work Programs (# IE-10-018).
               Inspection of the Agency-Wide Shared Services
                                Fleet Program




Response
IRS management provided an adequate, detailed response to our memorandum, and agreed with
our recommendations. The AWSS fleet program manager will request that REFM territory
managers ensure that the business units provide appropriate written justifications for vehicles
driven less than GSA’s mileage requirement. REFM will require each driver to self-certify that
they possess a valid driver’s license on the mileage log. The AWSS vehicle coordinators will
review logs monthly. Management’s complete response to the memorandum is included in
Appendix IV.
Please contact me at (202) 927-7048 if you have any questions, or Kevin P. Riley, Director,
Office of Inspections and Evaluations at (972) 249-8355.




                                                                                                  2
                                     Inspection of the Agency-Wide Shared Services
                                                      Fleet Program




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Agency-Wide Shared Services Could Improve Oversight of the Fleet
          Program ......................................................................................................... Page 2
                    Recommendations 1 and 2: ................................................ Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Management’s Response to the Draft Report ...................... Page 10
       Inspection of the Agency-Wide Shared Services
                        Fleet Program




               Abbreviations

AWSS     Agency-Wide Shared Services
FY       Fiscal Year
GSA      General Services Administration
IRS      Internal Revenue Service
                                Inspection of the Agency-Wide Shared Services
                                                 Fleet Program




                                             Background

We reviewed the Agency-Wide Shared Services (AWSS) fleet program as part of our recent
inspection of the Internal Revenue Service’s (IRS’s) Vehicle Home-to-Work Programs.1 The
AWSS oversees the IRS fleet program for vehicles other than those in Criminal Investigation or
the Small Business/Self-Employed Division’s Fuel Compliance Program. At the close of Fiscal
Year (FY) 2010, AWSS had 322 vehicles available for official use through a lease agreement
with the General Services Administration (GSA).
For each vehicle, GSA bills the IRS for a monthly lease amount plus a fixed cost per mile
(depending on the vehicle type), and for repairs that are not considered normal wear and tear.
Each month, AWSS reports the ending mileage for each vehicle to GSA for billing and
maintenance purposes. AWSS does this online through the GSA Fleet Drive-Thru application,
which captures data related to vehicle identification, acquisition, use, repairs and servicing,
accident reporting, disposal, and financial management. The Fleet Drive-Thru application also
provides analytical tools and query capabilities to support data analysis.
A credit card is provided for each vehicle so drivers can purchase fuel and pay for maintenance
and repairs that cost up to $100. Service is scheduled based on the vehicle’s age, mileage, and
maintenance history. GSA's Maintenance Control Center maintains complete computerized
vehicle history records on GSA Fleet vehicles. Vehicle repairs totaling over $100, or any tire
and battery replacement, regardless of cost, must be authorized by the Maintenance Control
Center. If the employee is involved in an accident or vehicle incident, GSA must be contacted.
This review was performed at the AWSS offices in Chicago, Illinois; New York, New York; and
Philadelphia, Pennsylvania, in addition to various business unit sites in the New York, New York
area during the period of September through December 2010. This review was performed in
accordance with the Council of the Inspectors General for Integrity and Efficiency Quality
Standards for Inspections. Detailed information on our objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1
    Inspection of the Internal Revenue Service’s Home-to-Work Programs (# IE-10-018).
                                                                                          Page 1
                               Inspection of the Agency-Wide Shared Services
                                                Fleet Program




                                      Results of Review

Agency-Wide Shared Services Could Improve Oversight of
the Fleet Program
The AWSS’s Real Estate and Facilities Management staff oversees the IRS fleet program for
vehicles used by IRS employees other than special agents in the Criminal Investigation or the
Small Business/Self-Employed Division’s Fuel Compliance officers and agents. Real Estate and
Facilities Management is also responsible for guidance provided in the Internal Revenue Manual2
for Motor Vehicle Management and Occupational Safety and Health.
Recordkeeping improvements to provide assurance of proper billing
are planned
Vehicles in the AWSS fleet are assigned to groups or functions in the business units. Individuals
in the business units sign a mileage log for the day(s) they use the vehicles, and include their
destination(s) and the mileage they incurred while using the vehicle. We noted that some
mileage logs provided columns for expenses while others did not. Vehicle expenses are
budgeted by and charged to the IRS business units that use the vehicles, such as Small
Business/Self-Employed Collections, Modernization and Information Technology Services, and
the Physical Security and Emergency Preparedness function within AWSS.
Contacts in those business units make certain that mileage logs are complete and that vehicles
are properly maintained. These contacts send the monthly logs to designated vehicle
coordinators in AWSS, who input the ending mileage for each vehicle in the GSA Fleet Drive-
Thru. Mileage documentation can also be sent to GSA electronically when the employee uses
the fleet charge card assigned to the vehicle and enters the mileage when purchasing fuel.
GSA bills the business units monthly using the Intra-Governmental Payment and Collection
system. Budget analysts in the business units certify that the accounting information is correct,
and forward the Intra-Governmental Payment and Collection bills to the appropriate vehicle
coordinators in AWSS. Vehicle coordinators are required to certify that the billing is correct,
which includes checking the billing against the records and reports, ensuring that the calculations
based on mileage are accurate, and that services, including repairs for accidents, have been
delivered appropriately. At one site we visited, the vehicle coordinator used receipts to
determine that GSA charged the IRS twice for an expense in excess of $1,700. However, we

2
  The Internal Revenue Manual provides the procedures, guidelines, policies, delegations of authority, and other
instructional materials related to the administration and operation of the IRS to its employees.
                                                                                                            Page 2
                                 Inspection of the Agency-Wide Shared Services
                                                  Fleet Program




found that not all vehicle coordinators verified repair charges against the bills because they were
unaware of tasks to be performed or did not have all the receipts. Without receipts, vehicle
coordinators cannot effectively certify Intra-Governmental Payment and Collection bills or
detect billing errors.
Additionally, the vehicle coordinators did not always notify the budget analysts in the business
units of upcoming repair bills. Budget analysts ensure that expenses are funded and budgeted for
based on the previous year. However, they do not know about actual expenses to be funded,
which may exceed budgeted amounts, until they receive the Intra-Governmental Payment and
Collection bill from GSA.
Vehicle coordinators attended training in August 2010, and are now expected to re-compute
vehicle monthly charges based on mileage, and reconcile charges against receipts. They will
also be given access to the Web Request Tracking System3 to verify that sufficient funding
balances exist to satisfy bills. These procedures became effective on October 1, 2010, and
should eliminate the possibility of paying duplicate or erroneous repair bills.
Justifications were not provided
The GSA utilization guidelines for fleet passenger vehicles are a minimum of 3,000 miles per
quarter or 12,000 miles per year. According to GSA’s Guide to Federal Fleet Management, a
justification process should be implemented and enforced when utilization guidelines are not
met. The IRS justification process is documented in the AWSS’s Motor Vehicle Program Desk
Guide.
According to the AWSS guidance, a business unit should provide an initial justification to the
Territory Manager for each request for a new GSA motor vehicle and for retention for the
following years. This justification must include the use of the vehicle, an explanation of the day-
to-day activities of the vehicle, the number of miles expected to be driven each month, and the
availability and approval of funds. The Territory Manager must complete an annual certification
to justify the continued need for those vehicles in their specific area that were not driven
approximately 1,000 miles per month or 12,000 miles per year. Figure 1 documents the average
monthly mileage for AWSS fleet vehicles at the end of FY 2010.




3
    The Web Request Tracking System is used to request approval for the funding of goods or services.
                                                                                                        Page 3
                               Inspection of the Agency-Wide Shared Services
                                                Fleet Program




                Figure 1: Average Monthly Mileage of AWSS Fleet Vehicles

                   Number of Vehicles by Average Monthly Mileage Category
    Mileage                                 0-2494       250-499        500-749       750-999        ≥1,000
    Number of Vehicles                        56            51             71            72             72
    Percentage of Total 3225                 17%           16%            22%           22%            22%
Source: AWSS from GSA Fleet Drive-Thru as of the end of FY 2010.

Based on the figures above, nearly 78 percent of vehicles in the AWSS fleet nationwide required
justifications, because the average monthly mileage did not exceed 1,000 miles per month.
However, based on our findings, we question whether Territory Managers prepared justifications
as required.
Specifically, at one site we visited, the manager advised us that one of the two vehicles assigned
to the group had a dead battery and had not been driven in months. The combined mileage of
both vehicles was less than 2,000 miles for the year. In fact, we found that for other than
vehicles purchased in the last month of FY 2010, 23 of the 34 vehicles (68 percent) in this
Territory6 were used an average of less than 250 miles per month. In October 2010, we
requested annual justifications from the Real Estate and Facilities Management Logistics
Management Chief for the Territory. The Chief had been in the position since February 2010
and was not able to provide certifications for previous years. Since that time, the Chief and his
staff have been working to obtain current justifications, and based on their analysis of vehicle
use, they plan to return three of 34 vehicles.
Accidents are declining
The AWSS provided data on accidents involving Government vehicles, available from the GSA
Collision Repair Accident and System History website. We found that accidents declined by
57.4 percent from FY 2006 to FY 2010. The figure below documents the number of accidents
reported from FY 2006 through FY 2010 and the steady decline in accidents over that period.




4
  Nine of the 322 vehicles were purchased during the last month of FY 2010, eight of which showed an average
below 250 miles.
5
  The total of percentages does not equal 100 percent due to rounding.
6
  There are 14 Real Estate and Facilities Management Territories. We determined the Territory by the ZIP Code of
the garaged address.
                                                                                                         Page 4
                                 Inspection of the Agency-Wide Shared Services
                                                  Fleet Program




                         Figure 2: Analysis of Accidents Involving AWSS
                                             Vehicles




            Source: AWSS.

Guidance for driver licensing does not meet the Department of the
Treasury’s requirements
The IRS needs to take steps to ensure that all employees possess the appropriate driver’s license
for the Government vehicle being operated. The Motor Vehicle Management Internal Revenue
Manual7 requires supervisors to ascertain whether employees who operate motor vehicles are
properly licensed; however, the Internal Revenue Manual does not specify the need to obtain
semi-annual self-certifications from drivers, as required by Treasury Directive 74-01, Motor
Vehicle Fleet Management. While AWSS provides guidance for the use of Government vehicles
and oversees the program, managers in the business units are responsible for ensuring that the
requirements are met.
We found that only three of 11 groups we reviewed determined if drivers were properly licensed.
At one site (Territory), employees certified that they held a valid state driver’s license and that
they would notify their supervisor if it was suspended or revoked. At two other groups we were
told that managers ask to see the employee’s driver’s license. In the other eight groups,
managers simply assumed their employees possessed the required state driver’s license. Semi-


7
    Internal Revenue Manual 1.14.7.2.6(1) (dated July 25, 2008).
                                                                                            Page 5
                           Inspection of the Agency-Wide Shared Services
                                            Fleet Program




annual self-certifications would provide documentation for new managers and provide
notification by employees whose licenses have been suspended or revoked.

Recommendations
We recommend that the Director, Real Estate and Facilities Management:
Recommendation 1: Ensure that annual certifications of vehicle justifications are
prepared and evaluated for passenger vehicles driven fewer than 12,000 miles per year.
       Management’s Response: Management agreed with this recommendation. The
       AWSS fleet program manager will request that REFM territory managers ensure that
       business units provide appropriate written justifications for vehicles driven less than the
       GSA mileage requirement.
Recommendation 2: Revise the Motor Vehicle Management Internal Revenue Manual to
require drivers to self-certify that they possess a valid state driver’s license before they are
permitted to use a fleet vehicle.
       Management’s Response: Management agreed with this recommendation. REFM
       will require each driver to self-certify that they possess a valid driver’s license on the
       mileage log. The AWSS vehicle coordinators will review logs monthly.




                                                                                                   Page 6
                                Inspection of the Agency-Wide Shared Services
                                                 Fleet Program




                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

We reviewed the AWSS fleet program as part of our recent inspection of the IRS Vehicle Home-
to-Work Programs.1 The overall objective of this AWSS inspection was to determine the
adequacy of management controls and procedures for the organization’s use of government-
leased vehicles. To accomplish this we:
I.         Determined whether the use of the Government vehicles is being properly administered.
           A. Interviewed the responsible executives to determine the management and internal
              controls developed to detect and prevent abuse of the transportation program.
           B. Determined that GSA uses a computerized system, Fleet Drive-Thru, to monitor the
              use of AWSS leased vehicles.
           C. Obtained a list of vehicles that have been involved in accidents.




1
    Inspection of the Internal Revenue Service’s Home-to-Work Programs (IE-10-018).
                                                                                           Page 7
                        Inspection of the Agency-Wide Shared Services
                                         Fleet Program




                                                                  Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director
James Douglas, Supervisory Evaluator
Michelle Griffin, Lead Program Analyst
Dolores Castoro, Senior Auditor
Mark Anderson, Program Analyst




                                                                        Page 8
                        Inspection of the Agency-Wide Shared Services
                                         Fleet Program




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison:
       Agency-Wide Shared Services OS:A




                                                                        Page 9
         Inspection of the Agency-Wide Shared Services
                          Fleet Program




                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 10
Inspection of the Agency-Wide Shared Services
                 Fleet Program




                                                Page 11
